No. 20-193

 

 

IN THE

Supreme Court of the Anited States

CALVIN MCMILLAN,

Petitioner,
Vv.

STATE OF ALABAMA,
Respondent.

On Petition for Writ of Certiorari
to the Alabama Court of Criminal Appeals

Reply Brief for the Petitioner

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,637 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 2, 2020.

Colin Casey 6

Wilson-Epes Printing Co., Inc.
